HHS/OIG, Audit - "Review of Missouri Medicaid Payments for Services Provided to Deceased Recipients," (A-07-02-00143)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri Medicaid Payments for Services Provided to Deceased
Recipients," (A-07-02-00143)
March 6, 2003
Complete Text of Report is available in PDF format
(726 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the State paid claims
for deceased Medicaid recipients during the period October 1, 1998 through December
31, 2001 and, if so, to determine the amount of the unallowable payments.
To accomplish our objective, we identified, using computer analysis, 75,193
claims representing 2,939 Medicaid recipients that were potentially paid after
the date of death.  Subsequently, we selected a statistical sample of 200
from the 2,939 recipients for further review and determined, with the States
concurrence, that claims of $20,242 for 97 Medicaid recipients were unallowable.
Projected for the 2,939 recipients, we estimated that unallowable claims paid
for services after death totaled $196,232 (Federal share $118,362).  However,
the State indicated that not all claims were recoverable due to their age.
Our review also showed that unallowable payments were due, in part, because
the State was maintaining incorrect or missing information in the Medicaid Management
Information System (MMIS), the database used for monitoring payments made after
the date of death.